HHS/OIG-Audit--"Review of Reduced Indirect Cost Rates at Ten Large
Research Universities, (A-09-91-04018)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Reduced Indirect Cost Rates at Ten Large Research Universities," (A-09-91-04018)
January 28, 1992
Complete
Text of Report is available in PDF format (287 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that it is a common practice for universities
to enter into sponsored agreements with private industry and foreign governments
at reduced indirect cost rates. The ten universities in our review were forgoing
about $46 million in revenues per year because of this practice. However, the
Federal Government did not subsidize the research of foreign government and
industry sponsors at these universities.